                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report

    Subject:


                FEDERAL INFORMATION SECURITY
                   MANAGEMENT ACT AUDIT
                            FY 2012

                                           Report No. 4A-CI-00-12-016


                                          Date:                 11/05/12




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report

                              U.S. OFFICE OF PERSONNEL MANAGEMENT
                               -------------------------------------------------------------

                                     FEDERAL INFORMATION SECURITY
                                        MANAGEMENT ACT AUDIT
                                                     FY 2012
                                          --------------------------------
                                            WASHINGTON, D.C.




                                          Report No. 4A-CI-00-12-016


                                          Date:                    11/05/12




                                                                                     Michael R. Esser
                                                                                     Assistant Inspector General
                                                                                       for Audits

                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                   Executive Summary

                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                      -------------------------------------------------------------

                          FEDERAL INFORMATION SECURITY
                             MANAGEMENT ACT AUDIT
                                          FY 2012
                               --------------------------------
                                 WASHINGTON, D.C.




                              Report No. 4A-CI-00-12-016

                                                 11/05/12
                              Date:


This final audit report documents the Office of Personnel Management’s (OPM’s) continued
efforts to manage and secure its information resources.

The Office of the Chief Information Officer (OCIO) has recently made noteworthy
improvements to OPM’s IT security program. The OCIO has increased staffing levels in its IT
Security and Privacy Group, and has had a stable Chief Information Security Officer for the past
two and a half years. The OCIO has also successfully addressed a significant number of long-
standing IT audit recommendations. However, it is clear that there are still opportunities for
improvement in the overall management of OPM’s IT security program.

In FY 2007 and FY 2008, we reported a material weakness in controls over the development and
maintenance of OPM’s IT security policies. In FY 2009, we expanded the material weakness to
include concerns with the agency’s overall information security governance and its information
security management structure. This material weakness was rolled forward through FY 2010. In
FY 2011, the OCIO updated its IT security and privacy policies, but made little progress in


                                                   i
addressing our concerns with OPM’s security management structure. Throughout FY 2012, the
OCIO continued to operate with a decentralized IT security structure that did not have the
authority or resources available to adequately implement the new policies.

In August 2012, the OPM Director issued a memo to Associate Directors and Office Heads
notifying them that IT security responsibilities would be centralized under the OCIO effective
October 1, 2012. The OCIO has begun hiring IT security professionals to manage the security of
OPM’s major information systems. Once this transition is fully complete, we expect to close the
audit recommendations related to IT security governance and remove the material weakness.
However, the material weakness remains open in this report, as the agency’s IT security function
remained decentralized throughout the FY 2012 FISMA reporting period and because of the
continuing instances of non-compliance with FISMA requirements.

The OCIO’s response to our draft audit report indicated that they disagree with the classification
of the material weakness because of the progress that OPM has made with its IT security
program and because there was no loss of sensitive data during the fiscal year. However, the
OCIO’s statement is inaccurate, as there were in fact numerous information security incidents in
FY 2012 that led to the loss or unauthorized release of mission-critical or sensitive data. Several
of these security incidents were reported by the media. In addition, these incidents led to
financial loss to the agency in the form of credit monitoring services paid for individuals affected
by OPM’s loss of their sensitive data.

In FY 2010, we added a second material weakness related to the management of the Certification
and Accreditation process (now referred to as Security Assessment and Authorization or
Authorization). In FY 2011, the OCIO improved its Authorization policies and templates, and
added additional resources to facilitate the Authorization process. These improvements
warranted reducing the material weakness related to Authorizations to a significant deficiency in
the FY 2011 FISMA report. In FY 2012, we observed continued improvement in the OCIO’s
management of the Authorization process, and no longer consider this issue to be a significant
deficiency.

In addition to the issues described above, we noted the following controls in place and
opportunities for improvement:
•   The OCIO has implemented risk management procedures at a system-specific level, but has
    not developed an agency-wide risk management methodology.
•   The OCIO has implemented an agency-wide information system configuration management
    policy and has established configuration baselines for all operating platforms used by the
    agency. However, Oracle databases are not routinely scanned for compliance with
    configuration baselines.
•   The OCIO routinely conducts vulnerability scans of production servers, and has improved its
    capability to track outstanding vulnerabilities. However, the OCIO has not documented
    accepted weaknesses for servers or databases.




                                                 ii
•   The OCIO has implemented a process to apply operating system patches on all devices
    within OPM’s network on a weekly basis. However, third party application patches are not
    applied in a timely manner.
•   The OCIO has developed thorough incident response capabilities, but does not have a
    centralized network security operations center to continuously monitor security events.
•   The OCIO has implemented a process to provide annual IT security and privacy awareness
    training to all OPM employees and contractors. However, controls related to specialized
    security training for individuals with information security responsibility could be improved.
•   Plans of Action and Milestones (POA&M) exist for all information systems in OPM’s
    inventory. However, several OPM systems have POA&M weaknesses that are significantly
    overdue and do not identify the resources required to correct the problem.
•   The OCIO enforces the use of two-factor authentication for remote access, but VPN sessions
    do not terminate after 30 minutes of inactivity.
•   OPM is not compliant with OMB Memorandum M-11-11, as no OPM systems require two-
    factor authentication using PIV credentials.
•   The OCIO does not have the ability to detect unauthorized devices connected to the OPM
    network.
•   The OCIO has taken steps toward implementing a continuous monitoring program at OPM;
    however, this project remains a work in progress.
•   The IT security controls were adequately tested for only 34 of 47 information systems in
    OPM’s inventory.
•   The contingency plans were adequately tested for only 39 of 47 information systems in
    OPM’s inventory.
•   There is not a coordinated contingency plan/disaster recovery test between OPM’s various
    general support systems.
•   OPM program offices did not provide adequate oversight over contractors that operate
    information systems on behalf of the agency.
•   OPM maintains an adequate security capital planning and investment program for
    information security.
•   OPM is continuing its efforts to reduce the unnecessary use of Social Security Numbers.




                                                iii
                                                                Contents
                                                                                                                                            Page


  Executive Summary .................................................................................................................... i
  Introduction ................................................................................................................................ 1
  Background ................................................................................................................................ 1
  Objectives ................................................................................................................................... 1
  Scope and Methodology ............................................................................................................. 2
  Compliance with Laws and Regulations .................................................................................... 3
  Results ........................................................................................................................................ 4
       I. Information Security Governance .................................................................................... 4
      II. Security Assessment and Authorization .......................................................................... 7
     III. Risk Management ............................................................................................................ 8
     IV. Configuration Management ............................................................................................. 9
      V. Incident Response and Reporting .................................................................................. 12
    VI. Security Training ........................................................................................................... 14
    VII. Plan of Action and Milestones ....................................................................................... 15
   VIII. Remote Access Management ......................................................................................... 17
    IX. Identity and Access Management .................................................................................. 18
     X. Continuous Monitoring Management ............................................................................ 20
    XI. Contingency Planning .................................................................................................... 22
    XII. Contractor Systems ........................................................................................................ 24
   XIII. Security Capital Planning .............................................................................................. 25
  XIV. Follow-up of Prior OIG Audit Recommendations......................................................... 26
  Major Contributors to this Report ............................................................................................ 27

Appendix I: The Office of the Chief Information Officer’s October 16, 2012 comments on the
            draft audit report, issued September 27, 2012.
Appendix II: FY 2012 Inspector General FISMA reporting metrics
                                         Introduction
On December 17, 2002, the President signed into law the E-Government Act (Public Law 107-
347), which includes Title III, the Federal Information Security Management Act (FISMA).
FISMA requires (1) annual agency program reviews, (2) annual Inspector General (IG)
evaluations, (3) agency reporting to the Office of Management and Budget (OMB) the results of
IG evaluations for unclassified systems, and (4) an annual OMB report to Congress summarizing
the material received from agencies. In accordance with FISMA, we conducted an audit of
OPM’s security program and practices. As part of our audit, we reviewed OPM’s FISMA
compliance strategy and documented the status of its compliance efforts.

                                         Background
FISMA requirements pertain to all information systems supporting the operations and assets of
an agency, including those systems currently in place or planned. The requirements also pertain
to IT resources owned and/or operated by a contractor supporting agency systems.

FISMA reemphasizes the Chief Information Officer’s strategic, agency-wide security
responsibility. At OPM, security responsibility is assigned to the agency’s Office of the Chief
Information Officer (OCIO). FISMA also clearly places responsibility on each agency program
office to develop, implement, and maintain a security program that assesses risk and provides
adequate security for the operations and assets of programs and systems under its control.

To assist agencies and IGs in fulfilling their FISMA evaluation and reporting responsibilities, the
Department of Homeland Security (DHS) National Cyber Security Division issued the Fiscal
Year (FY) 2012 Inspector General FISMA Reporting Instructions. This document provides a
consistent form and format for agencies to report FISMA audit results to DHS. It identifies a
series of reporting topics that relate to specific agency responsibilities outlined in FISMA. Our
audit and reporting strategies were designed in accordance with the above DHS guidance.

                                          Objectives
Our overall objective was to evaluate OPM’s security program and practices, as required by
FISMA. Specifically, we reviewed the status of the following areas of OPM’s IT security
program in accordance with DHS’s FISMA IG reporting requirements:
•   Risk Management;
•   Configuration Management;
•   Incident Response and Reporting Program;
•   Security Training Program;
•   Plans of Action and Milestones (POA&M) Program;
•   Remote Access Program;
•   Identity and Access Management;
•   Continuous Monitoring Program;
•   Contingency Planning Program;
•   Agency Program to Oversee Contractor Systems; and


                                                1
•   Agency Security Capital Planning Program.

In addition, we evaluated the status of OPM’s IT security governance structure and its Security
Assessment and Authorization process. These two areas represented material weaknesses in
OPM’s IT security program in prior FISMA audits.

We also evaluated the security controls of three major applications/systems at OPM (see Scope
and Methodology for details of these audits). We also followed-up on outstanding
recommendations from prior FISMA audits (see Appendix I).

                                  Scope and Methodology
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. The audit covered OPM’s
FISMA compliance efforts throughout FY 2012.

We reviewed OPM’s general FISMA compliance efforts in the specific areas defined in DHS’s
guidance and the corresponding reporting instructions. We also evaluated the security controls
for the following major applications:
•   Local Area Network / Wide Area Network General Support System (Report No. 4A-CI-00-
    12-014);
•   Audit Report & Receivables Tracking System (Report No. 4A-OP-00-12-013); and
•   Service Credit Redeposit and Deposit System (Report No. 4A-CF-00-12-015).

We considered the internal control structure for various OPM systems in planning our audit
procedures. These procedures were mainly substantive in nature, although we did gain an
understanding of management procedures and controls to the extent necessary to achieve our
audit objectives. Accordingly, we obtained an understanding of the internal controls for these
various systems through interviews and observations, as well as inspection of various documents,
including information technology and other related organizational policies and procedures. This
understanding of these systems’ internal controls was used to evaluate the degree to which the
appropriate internal controls were designed and implemented. As appropriate, we conducted
compliance tests using judgmental sampling to determine the extent to which established
controls and procedures are functioning as required.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
OPM. Due to time constraints, we did not verify the reliability of the data generated by the
various information systems involved. However, we believe that the data was sufficient to
achieve the audit objectives, and nothing came to our attention during our audit testing to cause
us to doubt its reliability.




                                                2
Since our audit would not necessarily disclose all significant matters in the internal control
structure, we do not express an opinion on the set of internal controls for these various systems
taken as a whole.

The criteria used in conducting this audit include:
•   DHS National Cyber Security Division FY 2012 Inspector General Federal Information
    Security Management Act Reporting Instructions;
•   OPM Information Technology Security and Privacy Handbook;
•   OPM Information Technology Security FISMA Procedures;
•   OPM Security Assessment and Authorization Guide;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   OMB Memorandum M-06-16, Protection of Sensitive Agency Information;
•   OMB Memorandum M-04-04, E-Authentication Guidance for Federal Agencies;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   National Institute for Standards and Technology (NIST) Special Publication (SP) 800-12, An
    Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-37 Revision 1, Guide for Applying the Risk Management Framework to
    Federal Information Systems;
•   NIST SP 800-39, Managing Information Security Risk;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-60, Guide for Mapping Types of Information and Information Systems to
    Security Categories;
•   Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems;
•   FIPS Publication 140-2, Security Requirements for Cryptographic Modules; and
•   Other criteria as appropriate.

The audit was performed by the OIG at OPM, as established by the Inspector General Act of
1978, as amended. Our audit was conducted from May through September 2012 in OPM’s
Washington, D.C. office.

                        Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether OPM’s practices were
consistent with applicable standards. While generally compliant, with respect to the items tested,
OPM’s OCIO and other program offices were not in complete compliance with all standards, as
described in the “Results” section of this report.


                                                 3
                                           Results
The sections below detail the results of our FY 2012 FISMA audit of OPM’s IT Security
Program. Many recommendations were issued in prior FISMA audits and are rolled forward
from the 2011 FISMA audit (Report no. 4A-CI-00-11-009).

I.    Information Security Governance
      In FY 2007 and FY 2008, we reported a material weakness in controls over the
      development and maintenance of OPM’s IT security policies. In FY 2009, we expanded
      the material weakness to include concerns with the agency’s overall information security
      governance and its information security management structure. This material weakness
      was rolled forward through FY 2010. In FY 2011, the OCIO updated its IT security and
      privacy policies, but made little progress in addressing our concerns with OPM’s security
      management structure.

      In August 2012, the OPM Director issued a memo mandating the transfer of IT security
      duties from the decentralized program office Designated Security Officers to a
      centralized team of Information System Security Officers (ISSO) that report to the OCIO.
      Once this transition is fully complete, we expect to close the audit recommendations
      related to IT security governance and remove the material weakness. However, the
      material weakness remains open in this report, as the agency’s IT security function
      remained decentralized throughout the FY 2012 FISMA reporting period and because of
      the continuing instances of non-compliance with FISMA requirements.

      The sections below provide additional details from the OIG’s review of IT security
      governance at OPM.

      a) Information Security Management Structure

          Information system security at OPM has historically been managed by individual
          DSOs that report to the various program offices that own major computer systems.

          In recent years, the OCIO has added resources to its IT Security and Privacy Group
          (headed by the Chief Information Security Officer or CISO) in an effort to improve
          oversight over DSO activity. However, the agency’s security function continued to
          be ineffective, as very few of the DSOs have any background in information security,
          and most are only managing their security responsibilities as a collateral duty to their
          primary job function. In addition, the CISO had no direct managerial leverage over
          the DSO community, and did not have the authority to require them to adhere to basic
          FISMA mandates such as conducting contingency plan and security controls tests on
          their systems.

          It has been our long-standing opinion that OPM’s approach to IT security is too
          decentralized. We recommended that OPM program offices should continue to have
          responsibility for developing, operating, and maintaining the information systems that


                                               4
they own, but the DSO duties of documenting, testing, and monitoring information
system security should be centralized within the OCIO.

In FY 2012, OPM took significant action to centralize its IT security function.
OPM’s Director issued a memorandum that transfers the DSO’s security
responsibility to the newly created ISSO role, effective October 1, 2012. By the end
of FY 2012, the OCIO had filled three ISSO positions and assigned security
responsibility for 17 of the agency’s 47 information systems to these individuals. The
OCIO intends to hire enough ISSOs to manage the security of all 47 systems.

While these actions are clearly positive steps that OPM has taken to centralize its IT
security structure, the effort is not yet complete. The ISSOs have not yet performed
any tangible security work for the systems they manage, and there are still many
OPM systems that have not been assigned to an ISSO. Therefore, the material
weakness remains in place for FY 2012, but we are optimistic that the OCIO’s
planned actions will lead to the closure of the audit recommendation and removal of
the material weakness in FY 2013.

Recommendation 1 (Rolled-Forward from 2010)
We recommend that OPM implement a centralized information security governance
structure where all information security practitioners, including designated security
officers, report to the CISO. Adequate resources should be assigned to the OCIO to
create this structure. Existing designated security officers who report to their
program offices should return to their program office duties. The new staff that
reports to the CISO should consist of experienced information security professionals.

OCIO Response:
“A CIO initiated Memo directing the centralization of the security responsibilities
of Designated Security Officers (DSO) in the Office of Chief Information Security
Officer (CISO) was issued by the OPM Director on August, 2012 with an effective
date of October 1, 2012. The CIO has already hired staff with professional IT
security experience and certifications. The initial set of systems have been
transition[ed] to ISSOs for security management and we expect to have all OPM
systems under CISO management once the full complement of professional
security staff is on board and reporting to the CISO. We have also developed and
delivered a communication plan to program offices and DSOs at a meeting held on
September 26, 2012. The centralization of information security governance
structure is underway under the CISO leadership.”

The OCIO’s response also states that they disagree with the classification of this
issue as a material weakness for the following reasons:

1. “A significant decision was made by the OPM Director in 2012 to consolidate
   all OPM IT resources under the OCIO. . . .
2. Many of the findings mentioned have valid plans in motion . . . the IG should
   take into account the competing OPM priorities and the government wide


                                     5
      reduction of operating funds available to address these which elongated many
      of the plans. . . .
   3. [There was] no financial or PII loss.”

   OIG Reply:
   Although the OPM Director has approved the consolidation of IT resources under the
   CIO, this initiative is not complete. The OCIO has only taken over the security
   responsibility for approximately one-third of the agency’s major information systems,
   and does not currently have the qualified staff in place to take over the rest.

   We continue to classify the problems associated with OPM’s information security
   governance as a material weakness because the efforts completed to date have clearly
   not yet improved the security posture of the agency to a satisfactory level. The
   findings in this audit report highlight the many instances of non-compliance with
   FISMA requirements that have been recurring at OPM for many years.

   Contrary to the OCIO’s statement that there was no financial or PII loss in FY 2012,
   there were, in fact, numerous information security incidents that led to the loss or
   unauthorized release of mission-critical or sensitive data. Several of these security
   incidents were reported by the media. In addition, these incidents led to financial loss
   to the agency in the form of credit monitoring services paid for individuals affected
   by OPM’s loss of their sensitive data.

   We do recognize the fact that the OCIO has valid plans in motion to address OPM’s
   IT security governance issues. However, a government-wide reduction of operating
   funds has no impact on the fact that this issue represents a material weakness that will
   continue to have negative consequences for the agency until it is fully addressed. We
   continue to recommend that the OPM Director provide the OCIO with the financial
   and administrative support that it needs to fully implement a centralized information
   security governance structure at OPM.

b) IT Security Policies and Procedures

   OPM’s failure to adequately update its IT security and privacy policies and
   procedures was identified as a material weakness in the agency’s IT security program
   over the course of several FISMA audit reports.

   In FY 2011, the OCIO created and published new documents that provide a policy
   framework for OPM’s IT security program, including:
   •   Information Security and Privacy Policy Handbook;
   •   Information Technology Security FISMA Procedures; and,
   •   OPM Security Assessment and Authorization Guide.




                                        6
         In FY 2012, the OCIO added an addendum to the Policy Handbook that addressed
         topics that we reported as missing from the original policy, including:
         •   Policy and procedures related to oversight of systems operated by a contractor;
         •   Policy on agency-wide risk management;
         •   Policy related to roles and responsibilities for the Independent Verification and
             Validation (IV&V) process and procedures for managing an IV&V; and,
         •   Policy or guidance for identifying and continuously monitoring high risk security
             controls.

         The creation of these documents was sufficient to close our audit recommendations
         related to policies and procedures. However, the creation of policies and procedures
         alone does not improve an IT security program. They must be fully implemented by
         individuals with IT security responsibility. Given the longstanding issues with the
         decentralized structure of OPM’s IT security program, we do not believe that the new
         policies can be effective until the centralized ISSO structure described above is fully
         implemented.

II.   Security Assessment and Authorization
      System certification is a comprehensive assessment that attests that a system’s security
      controls are meeting the security requirements of that system, and accreditation is the
      official management decision to authorize operation of an information system and accept
      its risks. OPM’s process of certifying a system’s security controls is referred to as
      Security Assessment and Authorization (Authorization).

      Our FY 2008 and FY 2009 FISMA audit reports stated that weaknesses in OPM’s
      Authorization process were a significant deficiency in the internal control structure of the
      agency’s IT security program. The weaknesses cited related to inadequate management
      of the process and incomplete, inconsistent, and poor quality Authorization products. In
      FY 2010, these longstanding conditions continued to degrade, and as a result, they were
      reported as a material weakness in OPM’s IT security program.

      In FY 2011, the OCIO published updated procedures and templates designed to improve
      the overall Authorization process and dedicated resources to facilitating system
      Authorizations. We observed an improvement in the Authorization packages completed
      under this new process, and believed that this improvement warranted reducing the
      material weakness related to Authorization to a significant deficiency in the FY 2011
      FISMA report.

      In FY 2012, we observed a continued improvement in the Authorization packages
      completed under this new process. We reviewed the full Authorization packages of 12
      systems that were subject to an Authorization during FY 2012. The quality of all
      packages appeared to be an improvement over Authorizations completed in prior years,
      and the packages present a more uniform approach to IT security from the OPM systems.
      As a result, we no longer consider this issue to be a significant deficiency in OPM’s IT
      program.


                                               7
III.   Risk Management
       NIST SP 800-37 Revision 1 “Guide for Applying the Risk Management Framework to
       Federal Information Systems” provides federal agencies with a framework for
       implementing an agency-wide risk management methodology. The Guide suggests that
       risk be assessed in relation to the agency’s goals and mission from a three-tiered
       approach:
       •   Tier 1: Organization (Governance);
       •   Tier 2: Mission/Business Process (Information and Information Flows); and,
       •   Tier 3: Information System (Environment of Operation).

       NIST SP 800-39 “Managing Information Security Risk – Organization, Mission, and
       Information System View” provides additional details of this three-tiered approach.

       a) Agency-wide risk management

           NIST SP 800-39 states that agencies should establish and implement “Governance
           structures [that] provide oversight for the risk management activities conducted by
           organizations and include:
           (i) the establishment and implementation of a risk executive (function);
           (ii) the establishment of the organization’s risk management strategy including the
                 determination of risk tolerance; and
           (iii) the development and execution of organization-wide investment strategies for
                 information resources and information security.”

           In FY 2011, the OCIO organized a Risk Executive Function comprised of several IT
           security professionals. However, as of the end of FY 2012, the 12 primary elements
           of the Risk Executive Function as described in NIST SP 800-39 are still not all fully
           implemented. Key elements still missing from OPM’s approach to managing risk at
           an agency-wide level include: conducting a risk assessment, maintaining a risk
           registry, and communicating the agency-wide risks to the system owners.

           Although the OCIO has made improvements in assessing risk at the individual system
           level (see Security Assessment and Authorization section II, above), the OCIO is not
           currently managing risk at an organization-wide level.

           Recommendation 2 (Rolled-Forward from 2011)
           We recommend that the OCIO continue to develop its Risk Executive Function to
           meet all of the intended requirements outlined in NIST SP 800-39, section 2.3.2 Risk
           Executive (Function).

           OCIO Response:
           “The Risk Executive Function will have agency wide authority and responsibility
           for assessing risk across all OPM lines of business. This position will not be


                                                8
         specific to the CIO or IT functions. The CIO has been seeking advice from the OIG
         on where the Risk Executive Function should report in the OPM organization and
         are pending a response.”

         OIG Reply:
         NIST SP 800-39 requires agencies to conduct an agency-wide risk assessment,
         maintain a risk registry, and communicate the agency-wide risks to the system
         owners. We have not received any evidence that the OCIO has implemented any of
         these requirements. We will provide feedback on the OCIO’s approach in addressing
         this recommendation, but it would be inappropriate for an OIG to design controls on
         behalf of management. We continue to recommend that the OCIO develop its Risk
         Executive Function to meet all of the requirements of the NIST guide.

      b) System specific risk management

         NIST SP 800-37 Revision 1 outlines a risk management framework (RMF) that
         contains six primary steps, including “(i) the categorization of information and
         information systems; (ii) the selection of security controls; (iii) the implementation of
         security controls; (iv) the assessment of security control effectiveness; (v) the
         authorization of the information system; and, (vi) the ongoing monitoring of security
         controls and the security state of the information system.”

         The OCIO has implemented the six step RMF into its system-specific risk
         management activities through the new Authorization process. However, many
         systems are not subject to adequate ongoing assessments of security controls (see
         section X(c) below).

IV.   Configuration Management
      The sections below detail the controls that the OCIO has in place to manage the technical
      configuration of OPM servers and workstations.

      a) Agency-wide security configuration policy

         OPM’s Information Security and Privacy Policy Handbook contains policies and
         procedures related to agency-wide configuration management. The handbook
         requires the establishment of secure baseline configurations and the monitoring and
         documenting of all configuration changes.

      b) Configuration Baselines

         In FY 2012, OPM put forth significant effort to document and implement new
         baseline configurations for servers, databases, and workstations. At the end of the
         fiscal year, the OCIO had established baselines and/or build sheets for the following




                                               9
   operating systems:
   •   Windows Server 2003;
   •   Windows Server 2008;
   •   Oracle; and
   •   Microsoft SQL Server.

   The new baseline for the Linux operating platform is currently in development; we
   will follow up on the status of this item during the FY 2013 FISMA audit.

c) Federal Desktop Core/United States Government Computer Baseline
   Configuration

   OPM user workstations are built with a standard image that is compliant with either
   the Federal Desktop Core Configuration (for Windows XP) or the United States
   Government Baseline Configuration (for Windows 7).

   We conducted an automated scan on the Windows XP and Windows 7 standard
   images to independently verify compliance with the appropriate guideline. Nothing
   came to our attention to indicate that there are weaknesses in OPM’s methodology to
   securely configure user workstations.

d) Compliance with Baselines

   The OCIO uses automated scanning tools to conduct routine compliance audits on the
   majority of operating platforms used in OPM’s server environment. These tools
   compare the actual configuration of servers and workstations to the approved baseline
   configuration. However, this routine audit is not currently performed for Oracle
   databases, which are only evaluated for compliance with the baseline a single time at
   the point of implementation.

   NIST SP 800-53 Revision 3 control CM-3 requires agencies to audit activities
   associated with information system configurations.

   Recommendation 3
   We recommend that the OCIO implement a process to routinely audit Oracle
   databases for compliance with the approved OPM baseline configuration.

   OCIO Response:
   “OCIO has been working to standardize all operating systems and applications
   throughout the environment. Over the past year, all Windows and Linux operating
   systems, as well as Microsoft SQL have been given approved baseline images.
   Compliance scanning and configuration monitoring has also been established for
   these applications.”



                                      10
   OIG Reply:
   Our report states that the OCIO conducts compliance audits on the “majority of
   operating platforms used in OPM’s server environment.” We acknowledge that this
   includes Windows, Linux, and Microsoft SQL Server. However, the audit finding is
   specific to Oracle databases, which the OCIO does not currently audit and did not
   address in its response. We continue to recommend that the OCIO implement a
   process to routinely audit Oracle databases for compliance with the approved OPM
   baseline configuration.

e) Software and Hardware Change Management

   The OCIO has developed a Configuration Change Control Policy that outlines a
   formal process to approve and document all computer software and hardware
   changes.

   We reviewed evidence indicating that the OCIO is adequately following this policy
   and is thoroughly documenting all system changes. Nothing came to our attention to
   indicate that there are weaknesses in OPM’s change management process.

f) Vulnerability Scanning

   OPM’s Network Management Group (NMG) performs monthly vulnerability scans of
   all servers using automated scanning tools. A daily security advisory report is
   generated that details the most vulnerable servers and workstations; these reports are
   sent to system owners so they can remediate the identified weaknesses. The OCIO
   has improved its capability to accurately track all outstanding vulnerabilities and as a
   result, is able to remediate weaknesses in a timely manner.

   NMG has documented accepted weaknesses for OPM user workstations; however, it
   has not fully documented weaknesses for servers or databases (i.e., vulnerability scan
   findings that are justified by a business need). This recommendation remains open
   and is rolled forward in FY 2012.

   Recommendation 4 (Rolled-Forward from 2011)
   We recommend that the OCIO document “accepted” weaknesses identified in
   vulnerability scans.

   OCIO Response:
   “OCIO does not concur with this finding. This finding was addressed and has been
   accepted for closure.”

   OIG Reply:
   This recommendation has not been accepted for closure by either the OIG or the
   OPM audit follow-up office, Internal Oversight and Compliance (IOC). This
   recommendation remains open, and we advise the OCIO to review its records to


                                        11
        determine whether it has inappropriately classified the status of any other audit
        recommendations.

     g) Patch Management

        The OCIO has implemented a process to apply operating system patches on all
        devices within OPM’s network on a weekly basis. We conducted vulnerability scans
        on a sample of servers and determined that servers are appropriately patched.
        However, our scans also determined that third party applications (i.e., Adobe, Java,
        etc.) on production servers are not adequately patched. The OCIO is currently
        working to develop a process to manage patches for third party applications.

        NIST SP 800-53 Rev 3 control SI-2 requires the prompt installation of application
        patches, service packs, and hot fixes.

        Recommendation 5
        We recommend that the OCIO implement a process to timely patch (or remove
        altogether) third party applications on its servers.

        OCIO Response:
        “OCIO over the past year has reached out to the vendor of the patch management
        application and a project was developed to define, research, and select a solution to
        resolve this issue. A product has been selected and efforts are underway to
        implement this solution.”

        OIG Reply:
        As part of the audit resolution process, we recommend that the OCIO continue to
        update IOC with its progress in implementing this recommendation.

V.   Incident Response and Reporting
     OPM’s “Incident Response and Reporting Guide” outlines the responsibilities of OPM’s
     Situation Room and documents procedures for reporting all IT security events to the
     appropriate entities. We evaluated the degree to which OPM is following internal
     procedures and FISMA requirements for reporting security incidents internally, to the
     United States Computer Emergency Readiness Team (US-CERT), and to appropriate law
     enforcement authorities.

     a) Identifying and reporting incidents internally

        OPM’s Incident Response and Reporting Guide requires any user of the agency’s IT
        resources to immediately notify OPM’s Situation Room when IT security incidents
        occur. OPM reiterates the information provided in the Incident Response and
        Reporting Guide in an annual mandatory IT security and privacy awareness training



                                             12
   course. In addition, OPM also uses three different software tools to prevent and
   detect intrusions and malware in the agency’s network.

   While the OCIO has processes in place to quickly respond to all reported security
   incidents, we are aware of several incidents that were not appropriately reported to
   the Situation Room in FY 2012. We conducted a separate audit related to these
   incidents and recommended that the OCIO conduct improved agency-wide training
   and implement additional awareness campaigns related to incident response (see OIG
   Report No. 4A-RI-00-12-033.) The OCIO provided documentation towards the end
   of the fiscal year indicating that it has improved the annual training. We will
   determine if the updated training material has improved incident response reporting
   as part of the FY 2013 FISMA audit.

b) Reporting incidents to US-CERT and law enforcement

   OPM’s Incident Response and Reporting policy states that OPM's Situation Room is
   responsible for sending incident reports to US-CERT on security incidents. OPM
   notifies US-CERT within one hour of a reportable security incident occurrence.

   The Incident Response and Reporting policy also states that security incidents should
   be reported to law enforcement authorities, where appropriate. The OIG’s Office of
   Investigations is part of the incident response notification distribution list, and is
   notified when security incidents occur.

c) Correlating and Monitoring Security Incidents

   OPM owns a software product with the technical ability to compare and correlate
   security incidents over time. However, the correlation features of these tools are not
   being actively utilized at this time. This tool only receives event data from
   approximately 20 percent of all major OPM systems and is only being monitored
   during normal business hours. Furthermore, OPM does not have a consistent and
   unified process to monitor and analyze all security incidents. Some incidents cannot
   be fully investigated due to inconsistent logging practices across systems, and
   inefficiencies created by program offices running separate monitoring tools on their
   systems.

   The OCIO’s NMG is in the process of establishing an Enterprise Network Security
   Operations Center (ENSOC) that will provide continuous centralized support for
   OPM’s security incident prevention/management, performance analysis, fault
   resolution, maintenance coordination, configuration management, security
   management, system monitoring, network monitoring, alert escalation, problem
   resolution bridge coordination, and incident response. Although we agree that the
   proposed ENSOC will greatly improve OPM’s incident management capabilities, the
   OCIO continues to face resource limitations that hinder the full implementation of the
   ENSOC.




                                       13
         Recommendation 6
         We recommend that the OCIO establish a centralized network security operations
         center with the ability to monitor security events for all major OPM systems.

         OCIO Response:
         “A centralized monitoring center is being established with first level alerting and
         monitoring for the servers, and network appliances within the major OPM sites.
         Work has begun on incorporating application and database monitoring and
         compliance. OCIO deferred investment in a final solution to allow for an enterprise
         wide one after a data center relocation effort is completed in FY13.”

         OIG Reply:
         As part of the audit resolution process, we recommend that the OCIO continue to
         update IOC with its progress in implementing this recommendation.

VI.   Security Training
      FISMA requires all government employees and contractors to take IT security awareness
      training on an annual basis. In addition, employees with IT security responsibility are
      required to take additional specialized training.

      a) IT security awareness training

         The OCIO provides annual IT security and privacy awareness training to all OPM
         employees through an interactive web-based course. The course introduces
         employees and contractors to the basic concepts of IT security and privacy, including
         topics such as the importance of information security, security threats and
         vulnerabilities, viruses and malicious code, privacy training, peer-to-peer software,
         and the roles and responsibilities of users.

         Over 98 percent of OPM’s employees and over 95 percent of contractors completed
         the security awareness training course in FY 2012.

      b) Specialized IT security training

         OPM employees with significant information security responsibilities are required to
         take specialized security training in addition to the annual awareness training.

         The OCIO has developed a table outlining the security training requirements for
         specific job roles. The OCIO uses a spreadsheet to track the security training taken
         by employees that have been identified as having security responsibility. Of those
         identified, only 86 percent have completed the required specialized security training
         in FY 2012.




                                             14
        Recommendation 7 (Rolled-Forward from 2010)
        We continue to recommend that the OCIO ensure that all employees with significant
        information security responsibility take meaningful and appropriate specialized
        security training on an annual basis.

        OCIO Response:
        “Significant improvements were achieved this year with a completion rate of over
        85 percent taking specialize[d] security training compared with approximately 75
        percent in FY 2011. We plan to resubmit additional training information before
        this report is finalized for a number of users whose initial submissions were
        rejected. We expect the resubmissions to result in a completion rate of over 94
        percent.”

        OIG Reply:
        We did not receive a resubmission of the security training results from the OCIO, and
        only have evidence supporting an 85 percent compliance rate. Although this does
        represent an improvement over the prior year, the OCIO has not fully met this basic
        FISMA requirement for the past three years. We will test 2013 security training
        compliance as part of next year’s FISMA audit.

VII. Plan of Action and Milestones
     A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and
     monitoring the progress of corrective efforts for IT security weaknesses. The sections
     below detail OPM’s effectiveness in using POA&Ms to track the agency’s security
     weaknesses.

     a) POA&Ms incorporate all known IT security weaknesses

        In November 2011, the OIG issued the FY 2011 FISMA audit report with 29 audit
        recommendations. We verified that all 29 of the recommendations were
        appropriately incorporated into the OCIO master POA&M.

        Although only 34 of OPM’s 47 major systems were subject to annual security
        controls tests (see section X, below), we were able to verify that all security
        weaknesses identified during these tests were incorporated into the appropriate
        system’s POA&M.

     b) Prioritize Weaknesses

        Each program office at OPM is required to prioritize the security weaknesses on their
        POA&Ms to help ensure significant IT issues are addressed in a timely manner. We
        verified that the POA&Ms for all 47 OPM systems identified the prioritization of
        each security weakness.



                                            15
c) Effective Remediation Plans and Adherence to Remediation Deadlines

   All system owners are required to create action steps (milestones) to effectively
   remediate specific weaknesses identified on POA&Ms. Our review of the POA&Ms
   indicated that system owners are appropriately listing milestones and target
   completion dates on their POA&Ms.

   However, our review also indicated that many system owners are not meeting the
   self-imposed remediation deadlines listed on the POA&Ms. Twenty-two of OPM’s
   47 systems have POA&M items that are greater than 120 days overdue. We issued an
   audit recommendation in FY 2010 related to overdue POA&M items. This
   recommendation was closed in FY 2011 because there were significant improvements
   in the number of overdue POA&M items. However, the regression identified in FY
   2012 requires us to re-issue this recommendation.

   Recommendation 8
   We recommend that the OCIO and system owners develop formal corrective action
   plans to remediate all POA&M weaknesses that are over 120 days overdue.

   OCIO Response:
   “The CIO dedicated resources to this task and has successfully closed almost all of
   the POA&Ms that are over 120 [days overdue] and will continue to work with
   program offices to close those that are outstanding. Most POA&Ms that are over
   120 days have dependencies such as funding that is not available or coordination
   issues with external entities who often are not ready to implement the required
   changes.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the OCIO provide IOC
   with evidence that it has closed “almost all” POA&Ms that are over 120 days
   overdue. Once received, IOC and the OIG will promptly review this evidence and
   consider this recommendation for closure.

d) Identifying Resources to Remediate Weaknesses

   We interviewed the DSOs for 10 of the systems with overdue POA&M items. Each
   DSO stated that although they have identified the resources required to address the
   POA&M items, these resources are not currently available.

   We also noted that 11 POA&Ms have not identified the resources that would be
   required to address POA&M weaknesses, as required by OPM’s POA&M policy.

   Recommendation 9
   We recommend that all POA&Ms list the specific resources required to address each
   security weakness identified.


                                      16
        OCIO Response:
        “Work has started to ensure that POA&Ms are updated to include the ‘resources
        required’ information and we expect to make steady progress in FY13. We will
        continue to work with program offices to ensure that the resources required for
        POA&Ms are identified.”

        OIG Reply:
        As part of the audit resolution process, we recommend that the OCIO continue to
        update IOC with its progress in implementing this recommendation.

     e) OCIO tracking and reviewing POA&M activities on a quarterly basis

        The OCIO requires program offices to provide the evidence, or “proof of closure,”
        that security weaknesses have been resolved before officially closing the related
        POA&M. When the OCIO receives a proof of closure document from the program
        offices for a POA&M item, an OCIO employee will judgmentally review the
        documentation to determine whether or not the evidence provided was appropriate.

        We selected one closed POA&M item from 10 OPM systems and reviewed the proof
        of closure documentation provided by the program offices when the POA&M items
        were closed. The 10 systems were selected from the 47 OPM systems and were
        judgmentally chosen by OIG auditors. We determined that adequate proof of closure
        was provided for all 10 systems tested. The results of the sample test were not
        projected to the entire population.

VIII. Remote Access Management
     OPM has implemented policies and procedures related to authorizing, monitoring, and
     controlling all methods of accessing the agency’s network resources from a remote
     location. In addition, OPM has issued agency-wide telecommuting policies and
     procedures, and all employees are required to sign a Rules of Behavior document that
     outlines their responsibility for the protection of sensitive information when working
     remotely.

     OPM utilizes a Virtual Private Network (VPN) client to facilitate secure remote access to
     the agency’s network environment. The OPM VPN requires the use of an individual’s
     PIV card and password authentication to uniquely identify users. OIG has reviewed the
     VPN access list to ensure that there are no shared accounts and that each user account has
     been tied to an individual. The agency maintains logs of individuals who remotely access
     the network, and the logs are reviewed on a monthly basis for unusual activity or trends.

     Although there are still a small portion of authorized network devices that are not
     compliant with PIV cards (e.g., iPad), these devices still require multi-factor
     authentication for remote access through the use of RSA tokens and password
     authentication.



                                             17
      We did note one problem related to the FISMA requirement that a remote access session
      be terminated or locked out after 30 minutes of inactivity. We connected two
      workstations to OPM’s VPN server and left them idle for over 1 hour, but neither VPN
      session was terminated during this time.

      Recommendation 10
      We recommend the OCIO configure the VPN servers to terminate VPN sessions after 30
      minutes of inactivity.

      OCIO Response:
      “All technological controls are in place and OCIO believes this is a major flaw in a
      vendor's design that will require an out of band patch to repair. OCIO is in the process
      of implementing secondary controls to mitigate this issue until the patch is released.
      OCIO has narrowed [the] problem to a fault within the UDP connection to the client
      and are working with Cisco to get this resolved.”

      OIG Reply:
      As of the issuance of this report, idle VPN sessions can remain connected indefinitely.
      As part of the audit resolution process, we recommend that the OCIO continue to update
      IOC with its progress in implementing this recommendation.

IX.   Identity and Access Management
      The following sections detail OPM’s account and identity management program.

      a) Policies for Account and Identity Management

         OPM maintains policies and procedures for agency-wide account and identity
         management within the OCIO Information Security and Privacy Policy Handbook.
         The policies contain procedures for creating user accounts with the appropriate level
         of access as well as procedures for removing access for terminated employees.

      b) Terminated Employees

         OPM maintains policies related to management of user accounts for its local area
         network (LAN) and its mainframe environments. Both policies contain procedures
         for creating user accounts with the appropriate level of access as well as procedures
         for removing access for terminated employees.

         In the FY 2011 FISMA audit there were two recommendations related to OPM’s
         failure to remove LAN access for terminated employees. In response, the OCIO
         implemented a process to routinely audit all active user accounts to search for
         terminated employees or duplicate accounts.




                                             18
c) Multi-Factor Authentication with PIV

   OMB Memorandum M-11-11 required all federal information systems to be upgraded
   to use PIV credentials for multi-factor authentication by the beginning of FY 2012.
   In addition, the memorandum stated that all new systems under development must be
   PIV compliant prior to being made operational, and that agencies must be compliant
   with the memorandum prior to using technology refresh funds to complete other
   activities.

   In FY 2012, the OCIO began an initiative to require PIV authentication to access the
   agency’s network; the project is scheduled to be completed in January 2013.
   However, as of the end of the FY 2012, none of the 47 major systems at OPM require
   PIV authentication.

   Recommendation 11
   We recommend that the OCIO meet the requirements of OMB M-11-11 by upgrading
   its major information systems to require multi-factor authentication using PIV
   credentials.

   OCIO Response:
   “OPM has achieved 100% PIV usage for all remote connections and are
   implementing PIV usage within the OPM population based on its current project
   plan. OCIO plans to have to achieve 50% compliance by Q3 FY13.”

   OIG Reply:
   The OCIO’s response to this recommendation leads us to believe that it does not fully
   understand the requirements of OMB M-11-11. The memorandum requires each
   major application to enforce two-factor authentication via PIV credentials. PIV usage
   for remote connections or access to the network environment does not address this
   requirement. As of the issuance of this report, OPM has 0 percent compliance with
   OMB M-11-11, and we continue to recommend that OPM upgrade its major
   information systems to require multi-factor authentication using PIV credentials.

d) Unauthenticated Network Devices

   Since FY 2010 we have recommended that the OCIO implement an automated
   process to detect non-approved devices connected to OPM’s network. The OCIO has
   recently purchased a Network Access Controller (NAC) that will govern access to
   network resources. The NAC has the ability to identify all devices on the network
   and deny access to unrecognized devices. However, as of the end of FY 2012, the
   NAC has not been installed and configured for use at OPM.

   Recommendation 12 (Rolled-Forward from 2010)
   We recommend that the OCIO implement an automated process to detect
   unauthenticated network devices.


                                      19
        OCIO Response:
        “The network detection solution is in place and continued enforcement of NAC was
        delayed due to unforeseen vendor faults. OCIO, with the vendor, has developed
        remediation steps and this project will be completed on schedule (Q3 FY13).”

        OIG Reply:
        As part of the audit resolution process, we recommend that the OCIO continue to
        update IOC with its progress in implementing this recommendation.

X.   Continuous Monitoring Management
     The following sections detail OPM’s controls related to continuous monitoring of the
     security state of its information systems.

     a) Continuous monitoring policy and procedures

        OPM’s Information Security and Privacy Policy Handbook states that the security
        controls of all systems must be continuously monitored and assessed to ensure
        continued effectiveness. In FY 2012, the OCIO published an addendum to the
        Information Security and Privacy Policy which states that it is the ISSO/DSOs
        responsibility to assess all security controls in an information system. As stated above in
        section I, the ISSO function has not been fully established at OPM. Our FY 2011 FISMA
        report stated that many of the current DSOs do not have the technical skills or the
        resources required to adequately monitor the information security controls of their
        systems. Therefore, we believe that OPM’s continuous monitoring policies and
        procedures cannot be adequately implemented until the agency’s centralized ISSO
        function has been fully established.

     b) Continuous Monitoring Strategy

        The OCIO developed a concept of operations document and a continuous monitoring
        program implementation “roadmap” that describes the stages and timeline for
        implementing a full continuous monitoring program at OPM. While the initial stages
        of implementation began in FY 2012, full implementation of the plan is not scheduled
        to be completed until FY 2014. The next stage in the OCIO’s plan involves system
        owners evaluating specific security controls on an increasingly frequent basis.
        Implementation of this stage is scheduled to be completed during FY 2013.

        Recommendation 13
        We recommend that the OCIO expand its continuous monitoring program to include a
        reporting process at the system-level, and implement automated tools and metric
        reporting for OPM as outlined in the Information Security Continuous Monitoring
        Roadmap.




                                              20
   OCIO Response:
   “A comprehensive continuous monitoring plan was developed and briefed to the
   OIG and KPMG in 2012. The plan calls for a 4 phase implementation approach
   and we have started phase 1 implementation. Each system now has its own
   continuous monitoring plan and we expect to fully implement the phases of the
   continuous monitoring road map in FY2013.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the OCIO continue to
   update IOC with its progress in implementing this recommendation.

c) Annual Assessment of Security Controls

   Although OPM has begun implementing a continuous monitoring approach to
   information security controls, FISMA still requires information system owners to
   assess security controls on an annual basis.

   We requested the annual security controls test results for all OPM systems in order to
   review them for quality and consistency. However, we were only provided testing
   documentation for 34 out of the 47 major systems at OPM. Of the tests we did
   receive, the quality varied considerably. Failure to complete a security controls test
   increases the risk that agency officials are unable to make informed judgments to
   appropriately mitigate risks to an acceptable level.

   OPM’s decentralized approach to IT security has traditionally placed responsibility
   on the various program offices to test the security controls of their systems. The
   OCIO’s lack of authority over these program offices has contributed to the inadequate
   security controls testing of the agency’s information systems. We also believe that
   the DSO’s lack of technical skills also contributes to the problem. It has been over
   four years since all OPM systems were subject to an annual security controls test. We
   are optimistic that the quality and consistency of security controls tests will improve
   with the implementation of the OCIO’s centralized ISSO structure.

   Recommendation 14 (Rolled forward from 2008)
   We recommend that OPM ensure that an annual test of security controls has been
   completed for all systems.

   OCIO Response:
   “The CIO made significant progress with security controls testing in FY2012. We
   plan to implement continuous monitoring with professional security staff reporting
   to the CISO. The security staff will have the lead responsibility for continuous
   monitoring of OPM systems. Annual security controls testing will be included in
   the continuous monitoring program.”




                                       21
         OIG Reply:
         We do not agree that the OCIO has made significant progress with security controls
         testing in FY 2012. In fact, the 2012 compliance rate of 72 percent is a regression
         from the 2011 rate of 75 percent. OPM’s failure to meet this basic FISMA
         requirement for the past five years is a major contributing factor to our classification
         of information security governance as a material weakness. We will evaluate the FY
         2013 compliance rate as part of next year’s FISMA audit.

XI.   Contingency Planning
      OPM’s Information Security Privacy and Policy Handbook requires a contingency plan
      to be in place for each information system and that each system’s contingency plan be
      tested on an annual basis. The sections below detail our review of contingency planning
      activity in FY 2012.

      a) Documenting contingency plans of individual OPM systems

         We verified that contingency plans exist for all 47 production systems on OPM’s
         master system inventory.

         In prior OIG FISMA audits, we noted that the quality and consistency of contingency
         plans varied greatly between OPM’s various systems. As a result, the OCIO
         developed a contingency plan template that all system owners are now required to
         use. The new template closely follows the guidance of NIST SP 800-34,
         Contingency Planning Guide for Information Technology Systems.

      b) Testing contingency plans of individual OPM systems

         OPM’s Information Security Privacy and Policy Handbook requires that the
         contingency plan for each information system be tested at least annually using
         information system specific tests and exercises. However, we received evidence that
         contingency plans were tested for only 39 of 47 systems in FY 2012.

         Of the contingency plan tests we did receive, we continue to notice inconsistency in
         the quality of the documentation produced for various OPM systems. One of the
         main areas of inconsistency relates to the contingency plan test after action report.
         NIST SP 800-34 states that following a contingency plan test, “results and lessons
         learned should be documented and reviewed by test participants and other personnel
         as appropriate. Information collected during the test and post-test reviews that
         improve plan effectiveness should be incorporated into the contingency plan.”

         Several after action reports we reviewed did not include summarized results or
         lessons learned. Without a thoroughly documented after action report, system owners
         will not know how to improve the contingency plan in order to be better prepared for
         a disruptive event.



                                              22
   The OCIO has issued detailed guidance to program offices on how to conduct a
   contingency plan test and create an after action report. Our reviews have indicated
   that the program office DSOs currently responsible for conducting the contingency
   plan tests do not have the technical experience to adequately perform the task. We
   expect that the new centralized security function will improve this weakness, as
   contingency plan tests will be performed by the ISSO security professionals.

   Recommendation 15 (Rolled-Forward from 2008)
   We recommend that OPM’s program offices test the contingency plans for each
   system on an annual basis. The contingency plans should be immediately tested for
   the eight systems that were not subject to adequate testing in FY 2012.

   OCIO Response:
   “The CIO expects to make progress with contingency plan testing in [FY 2013]. It
   is expected that professional security staff reporting to the CISO will play a leading
   role in contingency plan testing.”

   OIG Reply:
   We will evaluate the FY 2013 compliance rate as part of next year’s FISMA audit. If
   the centralized governance structure is fully implemented, we are optimistic that
   compliance with contingency plan testing requirements will show improvement.

c) Testing contingency plans of OPM general support systems

   Many OPM systems reside on one of the agency’s general support systems. The
   OCIO conducts a full recovery test of the Enterprise Server Infrastructure general
   support system (i.e., the mainframe and associated systems) on an annual basis.
   However, the LAN/WAN general support system is not subject to a full functional
   disaster recovery test on a routine basis. Only select LAN/WAN systems that impact
   or interface with the mainframe environment are tested annually in conjunction with
   the mainframe disaster recovery test.

   In July 2012 a failure of the OPM data center’s uninterruptable power supply led to
   the unavailability of e-mail, Internet, and major information systems for a significant
   period of time. According to OPM’s disaster recovery plans, these critical services
   should have been instantly switched over to an alternate OPM processing site. We
   believe that routine functional disaster recovery testing of the LAN/WAN general
   support system can help prevent failures like this from occurring in the future.

   NIST SP 800-53 Revision 3 states that FIPS 199 “high” systems should be subject to
   “a full recovery and reconstitution of the information system to a known state as part
   of contingency plan testing.” Without full functional routine testing of all OPM
   general support systems, there is a risk that OPM systems will not be successfully
   recovered in the event of a disaster.



                                        23
        In the FY 2011 FISMA audit report we recommended that the OCIO implement a
        centralized (agency-wide) approach to contingency plan testing. We were informed
        that a single synchronized functional test is not feasible due to logistical and resource
        limitations. However, the intent of the recommendation is to ensure that all elements
        of the general support systems are subject to a full functional disaster recovery test
        each year. This recommendation can be remediated if each general support system is
        subject to a full functional test each year, even if it must be broken into a series of
        smaller tests.

        Recommendation 16 (rolled forward from 2011)
        We recommend that the OCIO implement and document a centralized (agency-wide)
        approach to contingency plan testing.

        OCIO Response:
        “OCIO concurs with this finding and is taking steps to assign personnel to this
        responsibility. A project is in progress to fully map the applications and systems and
        software is being acquired to track and report the testing.”

        OIG Reply:
        As part of the audit resolution process, we recommend that the OCIO continue to
        update IOC with its progress in implementing this recommendation.

XII. Contractor Systems
     We evaluated the methods that the OCIO and various program offices use to maintain
     oversight of their systems operated by contractors on behalf of OPM.

     1. Contractor System Documentation

        OPM’s master system inventory indicates that 17 of the agency’s 47 major
        applications are operated by a contractor. The OCIO also maintains a separate
        spreadsheet documenting interfaces between OPM and contractor-operated systems
        and the related Interconnection Security Agreements.

     2. Contractor System Oversight

        The OPM Information Security and Privacy Policy Addendum states that “It is the
        responsibility of the OPM system owner to ensure systems or services hosted by non-
        OPM organizations comply with OPM information security and privacy policies.”

        The OCIO distributes an annual Site Survey Assessment that program offices are
        required to complete for all contractor-operated systems. The survey requires the
        program office to document the physical, operational, organizational, and technical
        security controls in place at the contractor facilities.



                                             24
        Although the Site Survey Assessment is conceptually a good approach to overseeing
        contractor systems, the contractor is permitted to complete the survey themselves as
        opposed to an OPM employee or independent third party. We do not believe that this
        constitutes adequate independent oversight.

        A control enhancement to the security assessment section of NIST SP 800-53
        Revision 3 states that the agency “employs an independent assessor or assessment
        team to conduct an assessment of the security controls in the information system.” In
        our opinion, adequate oversight over contractor systems would require a federal
        employee or an independent third party to conduct the annual security controls tests
        as well as the triennial system Authorization.

        Recommendation 17
        We recommend that the OPM Information Technology Security and Privacy
        Handbook be updated to explicitly require contractor-operated systems to be subject
        to an annual security controls test performed by a government employee or an
        independent third party. The security controls tests should be documented using
        OPM’s standard templates.

        OCIO Response:
        “Comprehensive IT security & Privacy policies were developed and published in
        2011 and a policy addendum with updated policies was published in 2012 and
        accepted by the OIG and KPMG. The new OIG's policy recommendations will be
        added to existing policies in FY2013.”

        OIG Reply:
        As part of the audit resolution process, we recommend that the OCIO continue to
        update IOC with its progress in implementing this recommendation.

XIII. Security Capital Planning
     NIST SP 800-53 Revision 3 control SA-2, Allocation of Resources, states that an
     organization needs to determine, document, and allocate the resources required to protect
     information systems as part of its capital planning and investment control process.

     OPM’s Information Security and Privacy Policy Handbook contains policies and
     procedures to ensure that information security is addressed in the capital planning and
     investment process. The OCIO uses Exhibit 53B to record information security resources
     allocation and submits this information annually to OMB.

     Nothing came to our attention to indicate that OPM does not maintain an adequate capital
     planning and investment program for information security.




                                            25
XIV. Follow-up of Prior OIG Audit Recommendations

     All audit recommendations issued prior to 2011 were rolled forward into one of the
     recommendations in the FY 2011 OIG FISMA audit report (Report 4A-CI-00-11-009).
     FY 2011 recommendations that were not remediated by the end of FY 2012 are rolled
     forward with a new recommendation number in this FY 2012 OIG FISMA audit report.

     The prior sections of this report evaluate the current status of many 2011
     recommendations. However, there is one additional 2011 recommendation that has not
     yet been addressed in this report because the related topic was not part of the FY 2012
     FISMA reporting instructions. The current status of this recommendation is below.

     a) 4A-CI-00-11-009 Recommendation 28 (Rolled-Forward From 2008)
        The OCIO has an ongoing plan to reduce and eventually eliminate the unnecessary
        use of SSNs in its major information systems. However, resource limitations
        prevented them from completing this task in FY 2012. This recommendation remains
        open and is rolled forward in FY 2012.

        Recommendation 18 (Rolled-Forward from 2008)
        We recommend that OPM continue its efforts to eliminate the unnecessary use of
        SSNs in accordance with OMB Memorandum M-07-16.

        OCIO Response:
        “Significant work was done to eliminate the unnecessary use of social security
        numbers (SSN) including development of a consolidated Action Plan. The CIO has
        also eliminated the use of SSNs in USAJOBS and the PMF systems. The CIO's
        policy is to not approve new IT systems that intend to use SSN unless related to
        payroll functions. In FY2013, we plan to issue additional guidance to program
        offices on the requirement to eliminate the unnecessary use of SSNs and will
        continue to work with program offices on this important recommendation.”

        OIG Reply:
        As part of the audit resolution process, we recommend that the OCIO continue to
        update IOC with its progress in implementing this recommendation.




                                            26
                                Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:

•                  , Group Chief
•                    , Senior Team Leader
•               , IT Auditor
•                    , IT Auditor
•                , IT Auditor




                                              27
                                                             Appe ndix I

                               UNITED STATES OFFICE OF PERSONNEL MANAGEM ENT
                                                            Wa,hinglon. DC 20415

Chief Inrorrnalion
     Office(	                                             OCT I 6 2012
        MEMORAN DUM FOR:
                                         CHIEF, INFORMATION SYSTEMS AUDIT GR ~

        FROM:	                           MATIHEWE. PERRY         ~~
                                         CHIEF INFORMATION OFFICER~ r-- ~
        Subject:	                        Response to the Federal Information Security Management Act Audit
                                         FY 2012, Report NO AA-CI-00- I2-0 I6

        Th ank you for the oppo rtunity to comment on the subject report. We plan to continue making
        improvements in our sec urity risk manage ment strategy and the a PM IT security program.

        Respectfully, OCIO does not agree though with the Material Weakness rating and submits it
        should be reduced to a Signifi cant Deficiency. A number of factors weigh into our position :

                     A significant decision was made by the OPM Director in 2012 to consolidate all aPM IT
                     resources under the a CID. This enabled the a CID to have full authorit ies and reach into
                     previously independent IT area s. The ability to centrally manage and review all IT
                     components is a key improvement to OCIO' s success in remedi ation o f the findings;

                 Many of the findings ment ioned have valid plans in motion that show improvements and
                 detail plans to complete the find ings recommendations, OCIO feels the rG should take
                 into account the competing OPM priorities and the governmen t wide reduction of
                 operating funds ava ilable to address these which elongated many of the plans;

                 Working with the CFO and the Directors office, in FY 12, OCIO was provided
                 reallocated funding to hire 1550 's and 10 implement solutions to many ofthesc highly
                 visible findings. Many of which are showing tangible success this past year, such as no
                 financial or PH loss.

       Finally, OCIO feels that OPM is in a much better security posture than the previous years based
       on the hard work and investment from management. Thi s is reflected in the recent KPMG
       decision to lower their Material Weakn ess rating to a Signifi cant Defici ency for th is current aud it
       year.

       Again, respectfully, aero believes that this rating should be reduced based on the above.




       www.cprn.qov            Rec ruit, Retain and Honor a world-Class WOl kfm c~ to Serve the American People   www.usaJob,.gov
OIG Recommendations:

Recommendation 1 (Rolled-Forward (rom 2010)
We recommend that OPM implement centralized information security governance
structure where all information security practitioners, including designated security
officers, report to the CISO. Adequate resources should be assigned to the OCIO to
create this structure. Existing designated security officers who report to their
program offices should return to their program office duties. The new staff that
reports to the CISO should consist of experienced information security professionals.

(OCIO does not concur)

A CIO initiated Memo directing the centralization of the security responsibilities of Designated
Security Officers (DSO) in the Office of ChiefInformation Security Officer (CISO) was issued
by the OPM Director on August, 2012 with an effective date of October 1, 2012. The CIO has
already hired staff with professional IT security experience and certifications. The initial set of
systems have been transition to ISSOs for security management and we expect to have all OPM
systems under CISO management once the full complement of professional security staff is on
board and reporting to the CISO. We have also developed and delivered a communication plan to
program offices and DSOs at a meeting held on September 26, 2012. The centralization of
information security governance structure is underway under the CISO leadership.

Recommendation 2 (Rolled-Forward (rom 2011)

We recommend that the OCIO continue to develop its Risk Executive Function to

meet all of the intended requirements outlined in NIST SP 800-39, section 2.3.2 Risk

Executive (Function).


(OCIO does not concur)

The Risk Executive Function will have agency wide authority and responsibility for assessing
risk across all OPM lines of business. This position will not be specific to the CIO or IT
functions. The CIO has been seeking advice from the OIG on where the Risk Executive
Function should report in the OPM organization and are pending a response.

Recommendation 3
We recommend that the OCIO implement a process to routinely audit Oracle
Databases for compliance with the approved OPM baseline configuration.

(OCIO does not concur)

OCIO has been working to standardize all operating systems and applications throughout the
environment. Over the past year, all Windows and Linux operating systems, as well as Microsoft
SQL have been given approved baseline images. Compliance scanning and configuration
monitoring has also been established for these applications.



                                                2

Recommendation 4 (Rolled-Forward from 2011)
We recommend that the OCIO document "accepted" weaknesses identified in
Vulnerability scans.

(OCIO does not concur)

OCIO does not concur with this finding. This finding was addressed and has been accepted for
closure.

Recommendation 5
We recommend that the OCIO implement a process to timely patch (or remove
altogether) third party applications on its servers.

(OCIO does not concur)

OCIO over the past year has reached out to the vendor of the patch management application and
a project was developed to define, research, and select a solution to resolve this issue. A product
has been selected and efforts are underway to implement this solution.

Recommendation 6
We recommend that the OCIO establish a centralized network security operations
center with the ability to monitor security events for all major OPM systems.

(OCIO does not concur)

A centralized monitoring center is being established with first level alerting and monitoring for
the servers, and network appliances within the major OPM sites. Work has begun on
incorporating application and database monitoring and compliance. OCIO deferred investment in
a final solution to allow for an enterprise wide one after a data center relocation effort is
completed in FYI3.

Recommendation 7 (Rolled-Forward from 2010)

We continue to recommend that the OCIO ensure that all employees with significant

information security responsibility take meaningful and appropriate specialized

security training on an annual basis.


(OCIO does not concur)

Significant improvements were achieved this year with a completion rate of over 85 percent
taking specialize security training compared with approximately 75 percent in FY 2011. We plan
to resubmit additional training information before this report is finalized for a number of users
whose initial submissions were rejected. We expect the resubmissions to result in a completion
rate of over 94 percent.




                                                 3

Recommendation 8
We recommend that the OCIO and system owners develop formal corrective action
plans to immediately remediate all POA&M weaknesses that are over 120 days
overdue.

(Ocro concurs)

The cro dedicated resources to this task and has successfully closed almost all of the POA&Ms
that are over 120 day and will continue to work with program offices to close those that are
outstanding. Most POA&Ms that are over 120 days have dependencies such as funding that is
not available or coordination issues with external entities who often are not ready to implement
the required changes. It is suggested that the word "immediate" be removed from
recommendation 8 since immediate resolution is not feasible.

Recommendation 9
We recommend that all POA&Ms list the specific resources required to address each
security weakness identified.

(GClf) Concurs)

Work has started to ensure that POA&Ms are updated to include the "resources required"
information and we expect to make steady progress in FY13. We will continue to work with
program offices to ensure that the resources required for POA&Ms are identified.

Recommendation 10
We recommend the OCIO configure the VPN servers to terminate VPN sessions after 30
minutes of inactivity.

(ocro does not concur)

All technological controls are in place and ocro believes this is a major flaw in a vendor's
design that will require an out of band patch to repair. ocro is in the process of implementing
secondary controls to mitigate this issue until the patch is released. ocro has narrowed problem
toa fault within the UDP connection to the client and are working with Cisco to get this resolved.


Recommendation 11
We recommend that the OCIO meet the requirements of OMB M-11-11 by upgrading
its major information systems to require multi-factor authentication using PIV
credentials.

(ocro does not concur)




                                                4

OPM has achieved 100% PIV usage for all remote connections and are implementing PIV usage
within the OPM population based on its current project plan. OCIO plans to have to achieve 50%
compliance by Q3 FY13.

Recommendation 12 (Rolled-Forward (rom 2010)
We recommend that the OCIO implement an automated process to detect
unauthenticated network devices.

(OCIO does not concur)

The network detection solution is in place and continued enforcement ofNAC was delayed due
to unforeseen vendor faults. OCIO , with the vendor, has developed remediation steps and this
project will be completed on schedule (Q3 FY13).

Recommendation 13
We recommend that the OCIO expand its continuous monitoring program to include a
reporting process at the system-level, and implement automated tools and metric
reporting for OPM as outlined in the Information Security Continuous Monitoring
Roadmap,

(OCIO does not concur)

A comprehensive continuous monitoring plan was developed and briefed to the OIG and KPMG
in 2012. The plan calls for a 4 phase implementation approach and we have started phase 1
implementation. Each system now has its own continuous monitoring plan and we expect to
fully implement the phases of the continuous monitoring road map in FY2013.

Recommendation 14 (Rolled forward from 2008)

We recommend that OPM ensure that an annual test of security controls has been

completed for all systems.


(OCIO concurs)

The CIO made significant progress with security controls testing in FY2012. We plan to
implement continuous monitoring with professional security staff reporting to the CISO. The
security staff will have the lead responsibility for continuous monitoring of OPM systems.
Annual security controls testing will be included in the continuous monitoring program.

Recommendation 15 (Rolled-Forward (rom 2008)

We recommend that OPM's program offices test the contingency plans for each

system on an annual basis. The contingency plans should be immediately tested for

the 8 systems that were not subject to adequate testing in FY 2012.


(OCIO Concurs)




                                              5
The CIa expects to make progress with contingency plan testing in FY2012. It is expected that
professional security staff reporting to the CISO will playa leading role in contingency plan
testing.

Recommendation 16 (rolled forward from 2011)
We recommend that the OCIO implement and document a centralized (agency-wide)
approach to contingency plan testing.

(OCIO Concurs)

OCIO concurs with this finding and is taking steps to assign personnel to this responsibility. A
project is in progress to fully map the applications and systems and software is being acquired to
track and report the testing.

Recommendation 17
We recommend that the OPM Information Technology Security and Privacy
Handbook be updated to explicitly require contractor operated systems to be subject
to an annual security controls test performed by a government employee or an
independent third party. The security control tests should be documented using
OPM's standard templates.

(OCIO Concurs)

Comprehensive IT security & Privacy policies were developed and published in 2011 and a
policy addendum with updated policies was published in 2012 and accepted by the OIG and
KPMG. The new OIG's policy recommendations will be added to existing policies in FY2013.

Recommendation 18 (Rolled-Forward from 2008)

We recommend that OPM continue its efforts to eliminate the unnecessary use of

SSNs in accordance with OMB Memorandum M-07-16.


(OCIO does not concur)

Significant work was done to eliminate the unnecessary use of social security numbers (SSN)
including development of a consolidated Action Plan. The CIO has also eliminated the use of
SSNs in USAJOBS and the PMF systems. The CIO's policy is to not approve new IT systems
that intend to use SSN unless related to payroll functions. In FY2013, we plan to issue
additional guidance to program offices on the requirement to eliminate the unnecessary use of
SSNs and will continue to work with program offices on this important recommendation.




                                                6

                             Appendix II




Inspector General                                  2012
                                                  Annual FISMA
                                                     Report
Section Report




                 Office of Personnel Management
Section 1: Continuous Monitoring Management
1.1      Has the Organization established an enterprise-wide continuous monitoring program that assesses the security state of information systems
         that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the improvement opportunities that may
         have been identified by the OIG, does the program include the following attributes:
          No
                  Comments:      OPM's Office of the Chief Information Officer (OCIO) developed a concept of operations document and a continuous monitoring
                                 program implementation “roadmap” that describes the stages and timeline for implementing a full continuous monitoring program at
                                 OPM. While the initial stages of implementation began in FY 2012, full implementation of the plan is not scheduled to be completed
                                 until FY 2014
          1.1.1   Documented policies and procedures for continuous monitoring (NIST 800-53: CA-7)
                  Yes
          1.1.2   Documented strategy and plans for continuous monitoring (NIST 800-37 Rev 1, Appendix G)
                  Yes
          1.1.3   Ongoing assessments of security controls (system-specific, hybrid, and common) that have been performed based on the approved
                  continuous monitoring plans (NIST 800-53, NIST 800-53A)
                  No
                           Comments:       Only 34 of OPM's 47 major applications were subject to any form of security controls testing in FY 2012.
          1.1.4   Provides authorizing officials and other key system officials with security status reports covering updates to security plans and security
                  assessment reports, as well as POA&M additions and updates with the frequency defined in the strategy and/or plans (NIST 800-53,
                  NIST 800-53A)
                  Yes
1.2      Please provide any additional information on the effectiveness of the Organization’s Continuous Monitoring Management Program that was
         not noted in the questions above
          Continuous Monitoring
                  Comments:      OPM’s decentralized approach to IT security has traditionally placed responsibility on the various program offices to test the security
                                 controls of their systems. The OCIO’s lack of authority over these program offices has contributed to the inadequate security controls
                                 testing of the agency’s information systems. We also believe that the program office's security personnel lack of technical skills
                                 contributes to the problem. It has been over four years since all OPM systems were subject to an annual security controls test. We
                                 are optimistic that the quality and consistency of security controls tests will improve with the planned reorganization and centralization
                                 of the agency's IT security program.

OIG Report - Annual 2012                                                                                                                                              Page 1 of 17
                                                                             For Official Use Only
Section 2: Configuration Management
2.1      Has the Organization established a security configuration management program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the
         following attributes:
          Yes
          2.1.1   Documented policies and procedures for configuration management
                  Yes
          2.1.2   Standard baseline configurations defined
                  Yes
          2.1.3   Assessing for compliance with baseline configurations
                  Yes
                           Comments:       OPM's OCIO uses automated scanning tools to conduct routine compliance audits on the majority of operating platforms
                                           used in OPM’s server environment. These tools compare the actual configuration of servers and workstations to the
                                           approved baseline configuration. However, this routine audit is not currently performed for Oracle databases, which are
                                           only evaluated for compliance with the baseline a single time at the point of implementation.
          2.1.4   Process for timely, as specified in Organization policy or standards, remediation of scan result deviations
                  Yes
          2.1.5   For Windows-based components, FDCC/USGCB secure configuration settings fully implemented and any deviations from
                  FDCC/USGCB baseline settings fully documented
                  Yes
          2.1.6   Documented proposed or actual changes to hardware and software configurations
                  Yes
          2.1.7   Process for timely and secure installation of software patches
                  Yes




OIG Report - Annual 2012                                                                                                                                             Page 2 of 17
                                                                           For Official Use Only
Section 2: Configuration Management
          2.1.8    Software assessing (scanning) capabilities are fully implemented (NIST 800-53: RA-5, SI-2)
                   No
                            Comments:      OPM's OCIO has improved its capability to accurately track all weaknesses identified in vulnerability scans and as a result,
                                           is able to remediate weaknesses in a timely manner. The OCIO has documented accepted weaknesses for OPM user
                                           workstations; however, it has not fully documented weaknesses for servers or databases (i.e., vulnerability scan findings that
                                           are justified by a business need).
          2.1.9    Configuration-related vulnerabilities, including scan findings, have been remediated in a timely manner, as specified in Organization
                   policy or standards. (NIST 800-53: CM-4, CM-6, RA-5, SI-2)
                   Yes
          2.1.10   Patch management process is fully developed, as specified in Organization policy or standards. (NIST 800-53: CM-3, SI-2)
                   Yes
                            Comments:      We conducted vulnerability scans on a sample of servers and determined that servers are appropriately patched. However,
                                           our scans also determined that third party applications (i.e., Adobe, Java, etc.) on production servers are not adequately
                                           patched. The OCIO is currently working to develop a process to manage patches for third party applications.
2.2      Please provide any additional information on the effectiveness of the Organization’s Configuration Management Program that was not noted in
         the questions above.
          Configuration Management

Section 3: Identity and Access Management
3.1      Has the Organization established an identity and access management program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines and identifies users and network devices? Besides the improvement opportunities that have been identified by the
         OIG, does the program include the following attributes:
          Yes
          3.1.1    Documented policies and procedures for account and identity management (NIST 800-53: AC-1)
                   Yes




OIG Report - Annual 2012                                                                                                                                             Page 3 of 17
                                                                            For Official Use Only
Section 3: Identity and Access Management
          3.1.2   Identifies all users, including federal employees, contractors, and others who access Organization systems (NIST 800-53, AC-2)
                  Yes
                           Comments:       Since FY 2010 we have recommended that the OCIO implement an automated process to detect non-approved devices
                                           connected to OPM’s network. The OCIO has recently purchased a Network Access Controller (NAC) that will govern
                                           access to network resources. The NAC has the ability to identify all devices on the network and deny access to
                                           unrecognized devices. However, as of the end of FY 2012, the NAC has not been installed and configured for use at
                                           OPM.
          3.1.3   Identifies when special access requirements (e.g., multi-factor authentication) are necessary.
                  No
                           Comments:       OPM has not yet documented which systems require special access requirements, as many systems are currently
                                           incompatible with PIV readers.
          3.1.4   If multi-factor authentication is in use, it is linked to the Organization's PIV program where appropriate (NIST 800-53, IA-2)
                  No
                           Comments:       See note in 3.1.5.
          3.1.5   Organization has adequately planned for implementation of PIV for logical access in accordance with government policies (HSPD 12,
                  FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11)
                  No
                           Comments:       In 2012, OPM's OCIO began an initiative to require PIV authentication to access the agency’s network; the project is
                                           scheduled to be completed in January 2013. However, as of the end of the FY 2012, none of the 47 major systems at
                                           OPM require PIV authentication, as required by OMB M-11-11.
          3.1.6   Ensures that the users are granted access based on needs and separation of duties principles
                  Yes
          3.1.7   Identifies devices with IP addresses that are attached to the network and distinguishes these devices from users (For example: IP
                  phones, faxes, printers are examples of devices attached to the network that are distinguishable from desktops, laptops or servers that
                  have user accounts)
                  Yes




OIG Report - Annual 2012                                                                                                                                          Page 4 of 17
                                                                           For Official Use Only
Section 3: Identity and Access Management
          3.1.8    Identifies all User and Non-User Accounts (refers to user accounts that are on a system. Examples of non-user accounts are accounts
                   such as an IP that is set up for printing. Data user accounts are created to pull generic information from a database or a
                   guest/anonymous account for generic login purposes that are not associated with a single user or a specific group of users)
                   Yes
          3.1.9    Ensures that accounts are terminated or deactivated once access is no longer required
                   Yes
          3.1.10   Identifies and controls use of shared accounts
                   Yes
3.2      Please provide any additional information on the effectiveness of the Organization’s Identity and Access Management Program that was not
         noted in the questions above.
          Identity and Access Management

Section 4: Incident Response and Reporting
4.1      Has the Organization established an incident response and reporting program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the
         following attributes:
          Yes
          4.1.1    Documented policies and procedures for detecting, responding to and reporting incidents (NIST 800-53: IR-1)
                   Yes
          4.1.2    Comprehensive analysis, validation and documentation of incidents
                   Yes
          4.1.3    When applicable, reports to US-CERT within established timeframes (NIST 800-53, 800-61, and OMB M-07-16, M-06-19)
                   Yes
          4.1.4    When applicable, reports to law enforcement within established timeframes (SP 800-86)
                   Yes




OIG Report - Annual 2012                                                                                                                                 Page 5 of 17
                                                                          For Official Use Only
Section 4: Incident Response and Reporting
          4.1.5   Responds to and resolves incidents in a timely manner, as specified in Organization policy or standards, to minimize further damage.
                  (NIST 800-53, 800-61, and OMB M-07-16, M-06-19)
                  Yes
          4.1.6   Is capable of tracking and managing risks in a virtual/cloud environment, if applicable
                  Yes
                           Comments:       OPM has incident response policies and procedures that govern all systems, including those that reside in a cloud.
                                           However, OPM has not documented which systems reside in the cloud.
          4.1.7   Is capable of correlating incidents
                  Yes
          4.1.8   There is sufficient incident monitoring and detection coverage in accordance with government policies (NIST 800-53, 800-61, and
                  OMB M-07-16, M-06-19)
                  No
                           Comments:       OPM owns a software product with the technical ability to compare and correlate security incidents over time. However,
                                           the correlation features of these tools are not being actively utilized at this time. This tool only receives event data from
                                           approximately 20% of all major OPM systems and is only being monitored during normal business hours. Furthermore,
                                           OPM does not have a consistent and unified process to monitor and analyze all security incidents. Some incidents cannot be
                                           fully investigated due to inconsistent logging practices across systems, and inefficiencies created by program offices running
                                           separate monitoring tools on their systems.
4.2      Please provide any additional information on the effectiveness of the Organization’s Incident Management Program that was not noted in the
         questions above.
          Incident Response and Reporting

Section 5: Risk Management




OIG Report - Annual 2012                                                                                                                                             Page 6 of 17
                                                                            For Official Use Only
Section 5: Risk Management
5.1      Has the Organization established a risk management program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes:
          No
                  Comments:       In FY 2011, the OCIO organized a Risk Executive Function comprised of several IT security professionals. However, as of the end
                                  of FY 2012, the 12 primary elements of the Risk Executive Function as described in NIST SP 800-39 are still not all fully
                                  implemented. Key elements still missing from OPM’s approach to managing risk at an agency-wide level include: conducting a risk
                                  assessment, maintaining a risk registry, and communicating the agency-wide risks down to the system owners. Although the OCIO
                                  has made improvements in assessing risk at the individual system level (see Security Assessment and Authorization section II, above),
                                  the OCIO is not currently managing risk at an organization-wide level.
          5.1.1   Documented and centrally accessible policies and procedures for risk management, including descriptions of the roles and
                  responsibilities of participants in this process
                  Yes
          5.1.2   Addresses risk from an organization perspective with the development of a comprehensive governance structure and organization-wide
                  risk management strategy as described in NIST 800-37, Rev.1
                  No
                           Comments:       See comment in 5.1.
          5.1.3   Addresses risk from a mission and business process perspective and is guided by the risk decisions at the organizational perspective,
                  as described in NIST 800-37, Rev.1
                  Yes
          5.1.4   Addresses risk from an information system perspective and is guided by the risk decisions at the organizational perspective and the
                  mission and business perspective, as described in NIST 800-37, Rev. 1
                  Yes
          5.1.5   Categorizes information systems in accordance with government policies
                  Yes
          5.1.6   Selects an appropriately tailored set of baseline security controls
                  Yes



OIG Report - Annual 2012                                                                                                                                           Page 7 of 17
                                                                            For Official Use Only
Section 5: Risk Management
          5.1.7    Implements the tailored set of baseline security controls and describes how the controls are employed within the information system
                   and its environment of operation
                   Yes
          5.1.8    Assesses the security controls using appropriate assessment procedures to determine the extent to which the controls are
                   implemented correctly, operating as intended, and producing the desired outcome with respect to meeting the security requirements for
                   the system
                   No
                            Comments:       The security controls were assessed for only 34 of OPM's 47 major applications in FY 2012.
          5.1.9    Authorizes information system operation based on a determination of the risk to organizational operations and assets, individuals,
                   other organizations, and the Nation resulting from the operation of the information system and the decision that this risk is acceptable
                   Yes
          5.1.10   Ensures information security controls are monitored on an ongoing basis including assessing control effectiveness, documenting
                   changes to the system or its environment of operation, conducting security impact analyses of the associated changes, and reporting
                   the security state of the system to designated organizational officials
                   No
                            Comments:       OPM's continuous monitoring program is not fully implemented (see comments in section 1).
          5.1.11   Information system specific risks (tactical), mission/business specific risks and organizational level (strategic) risks are communicated
                   to appropriate levels of the organization.
                   Yes
          5.1.12   Senior Officials are briefed on threat activity on a regular basis by appropriate personnel. (e.g., CISO).
                   Yes
          5.1.13   Prescribes the active involvement of information system owners and common control providers, chief information officers, senior
                   information security officers, authorizing officials, and other roles as applicable in the ongoing management of information
                   system-related security risks
                   Yes




OIG Report - Annual 2012                                                                                                                                       Page 8 of 17
                                                                            For Official Use Only
Section 5: Risk Management
          5.1.14   Security authorization package contains system security plan, security assessment report, and POA&M in accordance with
                   government policies. (SP 800-18, SP 800-37)
                   Yes
          5.1.15   Security authorization package contains Accreditation boundaries for Organization information systems defined in accordance with
                   government policies.
                   Yes
5.2      Please provide any additional information on the effectiveness of the Organization’s Risk Management Program that was not noted in the
         questions above.
          Risk Management

Section 6: Security Training
6.1      Has the Organization established a security training program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes:
          Yes
          6.1.1    Documented policies and procedures for security awareness training (NIST 800-53: AT-1)
                   Yes
          6.1.2    Documented policies and procedures for specialized training for users with significant information security responsibilities
                   Yes
          6.1.3    Security training content based on the organization and roles, as specified in Organization policy or standards
                   Yes
          6.1.4    Identification and tracking of the status of security awareness training for all personnel (including employees, contractors, and other
                   Organization users) with access privileges that require security awareness training
                   Yes
          6.1.5    Identification and tracking of the status of specialized training for all personnel (including employees, contractors, and other
                   Organization users) with significant information security responsibilities that require specialized training
                   Yes



OIG Report - Annual 2012                                                                                                                                     Page 9 of 17
                                                                            For Official Use Only
Section 6: Security Training
          6.1.6   Training material for security awareness training contains appropriate content for the Organization (SP 800-50, SP 800-53).
                  Yes
6.2      Please provide any additional information on the effectiveness of the Organization’s Security Training Program that was not noted in the
         questions above.
          Security Training
                  Comments:      OPM employees with significant information security responsibilities are required to take specialized security training in addition to the
                                 annual awareness training. However, only 86% of employees identified as having information security responsibility completed the
                                 required specialized security training in FY 2012.

Section 7: Plan Of Action & Milestones (POA&M)
7.1      Has the Organization established a POA&M program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines and tracks and monitors known information security weaknesses? Besides the improvement opportunities that may have been
         identified by the OIG, does the program include the following attributes:
          Yes
          7.1.1   Documented policies and procedures for managing IT security weaknesses discovered during security control assessments and
                  requiring remediation
                  Yes
          7.1.2   Tracks, prioritizes and remediates weaknesses
                  Yes
          7.1.3   Ensures remediation plans are effective for correcting weaknesses
                  No
                           Comments:       See comment in 7.1.4
          7.1.4   Establishes and adheres to milestone remediation dates
                  No
                           Comments:       Our review of 2012 POA&Ms indicated that many system owners are not meeting the self-imposed remediation deadlines
                                           listed on the POA&Ms. Twenty-two of OPM’s 47 systems have POA&M items that are greater than 120 days overdue.
                                            We believe that this indicates that POA&M remediation plans are not effective for correcting weaknesses.



OIG Report - Annual 2012                                                                                                                                             Page 10 of 17
                                                                            For Official Use Only
Section 7: Plan Of Action & Milestones (POA&M)
          7.1.5   Ensures resources are provided for correcting weaknesses
                  No
                           Comments:      We interviewed the system owners of 10 OPM systems with overdue POA&M items. Each owner stated that although they
                                          have identified the resources required to address the POA&M items, these resources are not currently available.
          7.1.6   POA&Ms include security weaknesses discovered during assessments of security controls and requiring remediation. (Do not need to
                  include security weakness due to a Risk Based Decision to not implement a security control) (OMB M-04-25)
                  Yes
          7.1.7   Costs associated with remediating weaknesses are identified (NIST SP 800-53, Rev. 3, Control PM-3 and OMB M-04-25)
                  No
                           Comments:      Our review indicated that 11 POA&Ms have not identified the resources that would be required to address POA&M
                                          weaknesses, as required by OPM’s POA&M policy.
          7.1.8   Program officials and contractors report progress on remediation to CIO on a regular basis, at least quarterly, and the CIO centrally
                  tracks, maintains, and independently reviews/validates the POA&M activities at least quarterly (NIST SP 800-53, Rev. 3, Control
                  CA-5, and OMB M-04-25)
                  Yes
7.2      Please provide any additional information on the effectiveness of the Organization’s POA&M Program that was not noted in the questions
         above.
          POA&M

Section 8: Remote Access Management
8.1      Has the Organization established a remote access program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes:
          Yes
          8.1.1   Documented policies and procedures for authorizing, monitoring, and controlling all methods of remote access (NIST 800-53: AC-1,
                  AC-17)
                  Yes




OIG Report - Annual 2012                                                                                                                                  Page 11 of 17
                                                                          For Official Use Only
Section 8: Remote Access Management
          8.1.2    Protects against unauthorized connections or subversion of authorized connections.
                   Yes
          8.1.3    Users are uniquely identified and authenticated for all access (NIST 800-46, Section 4.2, Section 5.1)
                   Yes
          8.1.4    Telecommuting policy is fully developed (NIST 800-46, Section 5.1)
                   Yes
          8.1.5    If applicable, multi-factor authentication is required for remote access (NIST 800-46, Section 2.2, Section 3.3)
                   Yes
          8.1.6    Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote electronic authentication, including strength
                   mechanisms
                   Yes
          8.1.7    Defines and implements encryption requirements for information transmitted across public networks
                   Yes
          8.1.8    Remote access sessions, in accordance to OMB M-07-16, are timed-out after 30 minutes of inactivity after which re-authentication are
                   required
                   No
                            Comments:       Remote connections via VPN do not timeout after 30 minutes of inactivity.
          8.1.9    Lost or stolen devices are disabled and appropriately reported (NIST 800-46, Section 4.3, US-CERT Incident Reporting Guidelines)
                   Yes
          8.1.10   Remote access rules of behavior are adequate in accordance with government policies (NIST 800-53, PL-4)
                   Yes
          8.1.11   Remote access user agreements are adequate in accordance with government policies (NIST 800-46, Section 5.1, NIST 800-53, PS-6)
                   Yes
8.2      Please provide any additional information on the effectiveness of the Organization’s Remote Access Management that was not noted in the
         questions above.
          Remote Access Management

Section 9: Contingency Planning
OIG Report - Annual 2012                                                                                                                                  Page 12 of 17
                                                                            For Official Use Only
Section 9: Contingency Planning
9.1      Has the Organization established an enterprise-wide business continuity/disaster recovery program that is consistent with FISMA
         requirements, OMB policy, and applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the
         OIG, does the program include the following attributes:
          No
                  Comments:      It has been over 4 years since OPM has tested the contingency plans of all of its major information systems within one fiscal year (see
                                 9.1.4). In addition, one of OPM's major general support systems is not subject to adequate disaster recovery testing (see 9.1.7). We
                                 believe that this indicates that OPM does not have a FISMA-compliant enterprise-wide business continuity / disaster recovery
                                 program.
          9.1.1   Documented business continuity and disaster recovery policy providing the authority and guidance necessary to reduce the impact of a
                  disruptive event or disaster (NIST 800-53: CP-1)
                  Yes
          9.1.2   The Organization has performed an overall Business Impact Analysis (BIA) (NIST SP 800-34)
                  Yes
          9.1.3   Development and documentation of division, component, and IT infrastructure recovery strategies, plans and procedures (NIST SP
                  800-34)
                  Yes
          9.1.4   Testing of system specific contingency plans
                  No
                           Comments:       OPM’s Information Security Privacy and Policy Handbook requires that the contingency plan for each information system
                                           be tested at least annually using information system specific tests and exercises. However, we received evidence that
                                           contingency plans were tested for only 39 of 47 systems in FY 2012. Of the contingency plan tests we did receive, we
                                           continue to notice inconsistency in the quality of the documentation produced for various OPM systems. Our reviews have
                                           indicated that the decentralized program office personnel currently responsible for conducting the contingency plan tests do
                                           not have the technical experience to adequately perform the task. We expect that OPM's planned centralized security
                                           function will improve this weakness, as contingency plan tests will be performed by the security professionals that report to
                                           the CIO.




OIG Report - Annual 2012                                                                                                                                            Page 13 of 17
                                                                            For Official Use Only
Section 9: Contingency Planning
          9.1.5    The documented business continuity and disaster recovery plans are in place and can be implemented when necessary (FCD1, NIST
                   SP 800-34)
                   Yes
          9.1.6    Development and fully implementable of test, training, and exercise (TT&E) programs (FCD1, NIST SP 800-34, NIST 800-53)
                   Yes
          9.1.7    Performance of regular ongoing testing or exercising of business continuity/disaster recovery plans to determine effectiveness and to
                   maintain current plans
                   No
                            Comments:       Many OPM systems reside on one of the agency’s general support systems. The OCIO conducts a full recovery test of the
                                            Enterprise Server Infrastructure general support system (i.e., the mainframe and associated systems) on an annual basis.
                                            However, the LAN/WAN general support system is not subject to a full functional disaster recovery test on a routine basis.
                                            In the FY 2011 FISMA audit report we recommended that the OCIO implement a centralized (agency-wide) approach to
                                            contingency plan testing. We were informed that a single synchronized functional test is not feasible due to logistical and
                                            resource limitations. However, the intent of the recommendation is to ensure that all elements of the general support systems
                                            are subject to a full functional disaster recovery test each year. This recommendation can be remediated if each general
                                            support system is subject to a full functional test each year, even if it must be broken into a series of smaller tests.
          9.1.8    After-action report that addresses issues identified during contingency/disaster recovery exercises (FCD1, NIST SP 800-34)
                   No
                            Comments:       As mentioned in 9.1.4, only 39 out of OPM's 47 major applications were subject to a contingency plan test. Of those that
                                            were performed, the after action reports lacked quality and consistency.
          9.1.9    Systems that have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53)
                   Yes
          9.1.10   Alternate processing sites are subject to the same risks as primary sites (FCD1, NIST SP 800-34, NIST SP 800-53)
                   Yes
          9.1.11   Backups of information that are performed in a timely manner (FCD1, NIST SP 800-34, NIST SP 800-53)
                   Yes




OIG Report - Annual 2012                                                                                                                                           Page 14 of 17
                                                                             For Official Use Only
Section 9: Contingency Planning
          9.1.12   Contingency planning that consider supply chain threats
                   Yes
9.2      Please provide any additional information on the effectiveness of the Organization’s Contingency Planning Program that was not noted in the
         questions above.
          Contingency Planning

Section 10: Contractor Systems
10.1     Has the Organization established a program to oversee systems operated on its behalf by contractors or other entities, including Organization
         systems and services residing in the cloud external to the Organization? Besides the improvement opportunities that may have been identified
         by the OIG, does the program includes the following attributes:
          No
                   Comments:      We do not believe that OPM has a program in place to adequately oversee systems operated by a contractor (see 10.1.2).
          10.1.1   Documented policies and procedures for information security oversight of systems operated on the Organization's behalf by
                   contractors or other entities, including Organization systems and services residing in public cloud
                   Yes
          10.1.2   The Organization obtains sufficient assurance that security controls of such systems and services are effectively implemented and
                   comply with federal and Organization guidelines
                   No
                            Comments:      OPM's OCIO distributes an annual Site Survey Assessment that program offices are required to complete for all contractor
                                           operated systems. The survey requires the program office to document the physical, operational, organizational, and
                                           technical security controls in place at the contractor facilities. Although the Site Survey Assessment is conceptually a good
                                           approach to overseeing contractor systems, the contractor is permitted to complete the survey themselves as opposed to an
                                           OPM employee or independent third party. We do not believe that this constitutes adequate independent oversight. In our
                                           opinion, adequate oversight over contractor systems would require a federal employee or an independent third party to
                                           conduct the annual security controls tests as well as the triennial system Authorization.




OIG Report - Annual 2012                                                                                                                                            Page 15 of 17
                                                                            For Official Use Only
Section 10: Contractor Systems
          10.1.3   A complete inventory of systems operated on the Organization's behalf by contractors or other entities, including Organization systems
                   and services residing in public cloud
                   No
                            Comments:       OPM's system inventory adequately includes systems run by contractors. However, it does not indicate which systems
                                            operate in a cloud environment.
          10.1.4   The inventory identifies interfaces between these systems and Organization-operated systems (NIST 800-53: PM-5)
                   Yes
          10.1.5   The Organization requires appropriate agreements (e.g., MOUs, Interconnection Security Agreements, contracts, etc.) for interfaces
                   between these systems and those that it owns and operates
                   Yes
          10.1.6   The inventory of contractor systems is updated at least annually.
                   Yes
          10.1.7   Systems that are owned or operated by contractors or entities, including Organization systems and services residing in public cloud,
                   are compliant with FISMA requirements, OMB policy, and applicable NIST guidelines
                   Yes
10.2     Please provide any additional information on the effectiveness of the Organization’s Contractor Systems Program that was not noted in the
         questions above.
          Contractor Systems

Section 11: Security Capital Planning
11.1     Has the Organization established a security capital planning and investment program for information security? Besides the improvement
         opportunities that may have been identified by the OIG, does the program include the following attributes:
          Yes
                   Comments:      OPM’s Information Security and Privacy Policy Handbook contains policies and procedures to ensure that information security is
                                  addressed in the capital planning and investment process. The OCIO uses Exhibit 53B to record information security resources
                                  allocation and submits this information annually to OMB. Nothing came to our attention to indicate that OPM does not maintain an
                                  adequate capital planning and investment program for information security.




OIG Report - Annual 2012                                                                                                                                         Page 16 of 17
                                                                           For Official Use Only
Section 11: Security Capital Planning
          11.1.1   Documented policies and procedures to address information security in the capital planning and investment control (CPIC) process
                   Yes
          11.1.2   Includes information security requirements as part of the capital planning and investment process
                   Yes
          11.1.3   Establishes a discrete line item for information security in organizational programming and documentation (NIST 800-53: SA-2)
                   Yes
          11.1.4   Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources required (NIST 800-53: PM-3)
                   Yes
          11.1.5   Ensures that information security resources are available for expenditure as planned
                   Yes
11.2     Please provide any additional information on the effectiveness of the Organization’s Security Capital Planning Program that was not noted in
         the questions above.
          Security Capital Planning




OIG Report - Annual 2012                                                                                                                                Page 17 of 17
                                                                          For Official Use Only
